Supreme Court, U.S.
FILED

WAIVER

FEB 0 4 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

19-964
Christopher Lawrence v. University Hospital, et al.
Supreme Court Case No.

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
I represent University Hospital, Jim Davis, Renee Gallup, Dr. William Farr and Edward Burr, the only defendants served
with process in this case. All other defendants in the case style were never served, have not appeared, and are not Respondents.

11] I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar membe
Signature
Date.
(Type or print) Name

Joseph H.

Huff

❑ Ms.

❑ Mrs.

Mr.

❑ Miss

Kilpatrick Townsend & Stockton LLP
1450 Greene Street, Suite 230
Address

Firm

City & State
Phone

Augusta, GA

706.823•4202

Zip
Email

30901

jhuff@kilpatricktownsend.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Christopher Lawrence, 2974 Jenkins Dr., Snellville, GA 30078
Petrice Ricks, 2740 Highpoint Road, Snellville, GA 30078
Chaslie Lawrence Lewis, 2740 Highpoint Road, Snellville, GA 30078

KILPATRICK
TOWNSEND

KILPATRICK TOWNSEND & STOCKTON LLP
www.kilpatricktownsend.com

ATTORNEYS AT LAW

Enterprise Mill, 1450 Greene St., Suite 230
Augusta, GA 30901
t 706 724 2622 f 706 823 4204

direct dial 706 823 4202
direct fax 706 828 4453
jhuff@kilpatricktownsend.com

February 4, 2020

Scott S. Harris, Clerk
Supreme Court of the United States
1 15t Street NE
Washington, DC 20543
Re:

Supreme Court Case No. 19-964
Christopher Lawrence v. University Hospital, et al.

Dear Mr: Harris:

•

Please find enclosed a Waiver form filed on behalf of Respondents in the above referenced
case -to give notice that Respondents do not intend to file a response to Petitioner's petition for writ
of certiorari unless one is, requested by the Court.
Sincerely,
k4- Af
eph H. Huff
ounsel for Respondents
JHH:jsa
Enclosure
cc w/ enclosure:

Christopher Lawrence, 2974 Jenkins Drive, Snellville, GA 30078
Petrice Ricks, 2740 Highpoint Road, Snellville, GA 30078
Chaslie Lawrence Lewis, 2740 Highpoint Road, Snellville, GA 30078
\c• -•

US2008 11652326

ANCHORAGE ATLANTA AUGUSTA BEIJING CHARLOTTE DALLAS DENVER HOUSTON LOS ANGELES NEW YORK RALEIGH SAN DIEGO
SAN FRANCISCO SEATTLE SHANGHAI SILICON VALLEY STOCKHOLM TOKYO WALNUT CREEK WASHINGTON WINSTON-SALEM

